48846                Federal Register / Vol. 64, No. 173 / Wednesday, September 8, 1999 / Notices

  Name: Advanced Nursing Education                 Closed on: May 22, 2000, 10:00 a.m. to 6:00   health care program beneficiaries. Many
Review Group (Optional Group).                  p.m.; May 23–25, 2000, 8:00 a.m. to 6:00 p.m.    physicians have expressed an interest in
  Date and Time: April 25–28, 2000, 8:00           Name: Chiropractic/Demonstration Review       better protecting their practices from the
a.m. to 6:00 p.m.                               Group.
  Place: Holiday Inn Silver Spring, 8777
                                                                                                 potential for fraud and abuse. While the
                                                   Date and Time: May 22–25, 2000, 8:00 a.m.     OIG believes that the great majority of
Georgia Avenue, Silver Spring, Maryland         to 6:00 p.m.
20910.                                                                                           physicians are honest and share our goal
                                                   Place: Holiday Inn Silver Spring, 8777
  Open on: April 25, 2000, 8:00 a.m. to 10:00   Georgia Avenue, Silver Spring, Maryland
                                                                                                 of protecting the integrity of Medicare
a.m.                                            20910.                                           and other Federal health care programs,
  Closed on: April 25, 2000, 10:00 a.m. to         Open on: May 22, 2000, 8:00 a.m. to 10:00     all health care providers have a duty to
6:00 p.m.; April 26–28, 2000, 8:00 a.m. to                                                       reasonably ensure that the claims
                                                a.m.
6:00 p.m.
                                                   Closed on: May 22, 2000, 10:00 a.m. to 6:00   submitted to Medicare and other
  Name: Model AHEC Review Group.
                                                p.m.; May 23–25, 2000, 8:00 a.m. to 6:00 p.m.    Federal health care programs are true
  Date and Time: April 25–26, 2000, 8:00
                                                   Purpose: The Health Professions and Nurse     and accurate. The development of a
a.m. to 6:00 p.m.
  Place: Holiday Inn Silver Spring, 8777        Education Special Emphasis Panel shall           comprehensive, effective compliance
Georgia Avenue, Silver Spring, Maryland         advise the Director of the Bureau of Health      program by individual physicians and
20910.                                          Professions on the technical merit of grants
                                                to improve the training, distribution,
                                                                                                 small group practices will go a long way
  Open on: April 25, 2000, 8:00 a.m. to 10:00                                                    toward achieving this goal. Over the
a.m.                                            utilization, and quality of personnel required
                                                to staff the Nation’s health care delivery       past two years, the OIG has developed
  Closed on: April 25, 2000, 10:00 a.m. to
6:00 p.m.; April 26, 2000, 8:00 a.m. to 6:00    system.                                          guidances for hospitals, clinical
p.m.                                               Agenda: The open portion of each meeting      laboratories, home health agencies,
                                                will cover welcome and opening remarks,          third-party medical billing companies
  Name: Basic AHEC Review Group.
                                                financial management and legislative             and durable medical equipment
  Date and Time: April 27–28, 2000, 8:00
a.m. to 6:00 p.m.                               implementation updates, and overview of the      companies. While the OIG has
  Place: Holiday Inn Silver Spring, 8777        review process. The meetings will be closed      previously referred physicians and
Georgia Avenue, Silver Spring, Maryland         at approximately 10:00 a.m. on the first day
                                                of each meeting until adjournment for the
                                                                                                 physician groups to the OIG’s
20910.                                                                                           compliance guidance for third-party
  Open on: April 27, 2000, 8:00 a.m. to 10:00   review of grant applications. The closing is
                                                in accordance with the provision set forth in    medical billing companies for guidance
a.m.
  Closed on: April 27, 2000, 10:00 a.m. to      section 552b(c)(6), Title 5 U.S. Code, and the   regarding the risk areas that are most
6:00 p.m.; April 28, 2000, 8:00 a.m. to 6:00    Determination by the Associate                   directly relevant to physicians, we have
p.m.                                            Administrator for Management and Program         received continued interest from
  Name: Advanced Nursing Education              Support, Health Resources and Services           physicians for a specific guidance
Review Group I.                                 Administration, pursuant to Public Law 92–       directed at their individual practices. In
  Date and Time: May 1–4, 2000, 8:00 a.m.       463.                                             order to provide such meaningful
to 6:00 p.m.                                       Anyone wishing to obtain a roster of
                                                members or other relevant information
                                                                                                 guidance to individual and small group
  Place: Holiday Inn Silver Spring, 8777                                                         physician practices, the OIG is soliciting
Georgia Avenue, Silver Spring, Maryland         should write or contact Mrs. Sherry Whipple,
                                                Program Analyst, Peer Review Branch,             comments, recommendations and other
20910.
  Open on: May 1, 2000, 8:00 a.m. to 10:00      Parklawn Building, Room 8C–23, 5600              suggestions from concerned parties and
a.m.                                            Fishers Lane, Rockville, Maryland 20857,         organizations on how best to develop a
  Closed on: May 1, 2000, 10:00 a.m. to 6:00    telephone 301–443–5926.                          compliance program guidance to reduce
p.m.; May 2–4, 2000, 8:00 a.m. to 6:00 p.m.        Dated: September 2, 1999.                     the potential for fraud and abuse in the
  Name: Advanced Nursing Education              Jane M. Harrison,                                individual or small group physician
Review Group II.                                Director, Division of Policy Review and          practice, as well as feedback as to
  Date and Time: May 8–11, 2000, 8:00 a.m.      Coordination.                                    whether such a guidance would be
to 6:00 p.m.                                                                                     beneficial to physician practices.
                                                [FR Doc. 99–23335 Filed 9–7–99; 8:45 am]
  Place: Holiday Inn Silver Spring, 8777
                                                BILLING CODE 4160–15 P                           DATES: To assure consideration,
Georgia Avenue, Silver Spring, Maryland
20910.                                                                                           comments must be delivered to the
  Open on: May 8, 2000, 8:00 a.m. to 10:00                                                       address provided below by no later than
a.m.                                            DEPARTMENT OF HEALTH AND                         5 p.m. on November 8, 1999.
  Closed on: May 8, 2000, 10:00 a.m. to 6:00    HUMAN SERVICES                                   ADDRESSES: Please mail or deliver your
p.m.; May 9–11, 2000, 8:00 a.m. to 6:00 p.m.                                                     written comments, recommendations
  Name: Basic Nurse Education and Practice      Office of Inspector General                      and suggestions to the following
Review Group.                                                                                    address: Department of Health and
  Date and Time: May 16–19, 2000, 8:00 a.m.     Solicitation of Information and
                                                                                                 Human Services, Office of Inspector
to 6:00 p.m.                                    Recommendations for Developing OIG
  Place: Holiday Inn Silver Spring, 8777                                                         General, Attention: OIG–7–CPG, Room
                                                Compliance Program Guidance for
Georgia Avenue, Silver Spring, Maryland                                                          5246, Cohen Building, 330
                                                Individual Physicians and Small Group
20910.                                                                                           Independence Avenue, S.W.,
                                                Practices
  Open on: May 16, 2000, 8:00 a.m. to 10:00                                                      Washington, D.C. 20201.
a.m.                                            AGENCY: Office of Inspector General                 We do not accept comments by
  Closed on: May 16, 2000, 10:00 a.m. to 6:00   (OIG), HHS.                                      facsimile (FAX) transmission. In
p.m.; May 17–19, 2000, 8:00 a.m. to 6:00 p.m.                                                    commenting, please refer to the file code
                                                ACTION: Notice.
  Name: Allied Health Project Grants Review                                                      OIG–7–CPG. Comments received timely
Group.                                          SUMMARY:   This Federal Register notice          will be available for public inspection as
  Date and Time: May 22–25, 2000, 8:00 a.m.     seeks the input and recommendations of           they are received, generally beginning
to 6:00 p.m.
  Place: Holiday Inn Silver Spring, 8777
                                                interested parties as the OIG considers          approximately 3 weeks after publication
Georgia Avenue, Silver Spring, Maryland         developing a compliance program                  of a document, in Room 5541 of the
20910.                                          guidance for individual and small group          Office of Inspector General at 330
  Open on: May 22, 2000, 8:00 a.m. to 10:00     physician practices, especially those            Independence Avenue, S.W.,
a.m.                                            serving Medicare and other Federal               Washington, D.C. 20201 on Monday
                        Federal Register / Vol. 64, No. 173 / Wednesday, September 8, 1999 / Notices                           48847

through Friday of each week from 8:00                • The development and                    contact information relating to potential
a.m. to 4:30 p.m.                                  implementation of effective training and   study cooperation and participation by
FOR FURTHER INFORMATION CONTACT:                   education programs.                        scientists from the USGS Biological
Kimberly Brandt, Office of Counsel to                • The development and maintenance        Resources Division, Eastern Region,
the Inspector General, (202) 619–2078.             of effective lines of communication.       Science Centers (6 Centers) and
                                                     • The enforcement of standards           Cooperative Research Units (16 Units)
SUPPLEMENTARY INFORMATION: The
                                                   through well-publicized disciplinary       access the following web sites:
development of compliance program                  guidelines.
guidances has become a major initiative                                                       For Centers, http://biology.usgs.gov/
                                                     • The use of audits and other               nbs/nbshp2�2.htm http
of the OIG in its effort to engage the             evaluation techniques to monitor
private health care community in                                                                      and
                                                   compliance.                                For Units, http://biology.usgs.gov/coop/
addressing and combating fraud and                   • The development of procedures to
abuse. Recently, the OIG has developed                                                           list.html
                                                   respond to detected offenses and to
and issued compliance program                      initiate corrective action.                   Proposals involving the support and
guidance directed at various segments of             The OIG would appreciate specific        cooperation of multiple State parties as
the health care industry.1 New OIG                 comments, recommendations and              well as multiple Federal, private, or
guidance under consideration will be               suggestions on (1) risk areas for the      other entities are strongly favored.
designed to provide clear direction and            individual or small group physician        Respondents are encouraged to show
assistance to physicians providing                 practice, and (2) aspects of the seven     linkages to other resource agencies, in
services to Medicare and other Federal             elements contained in previous             addition to USGS, that have jurisdiction
health care program beneficiaries who              guidances that may need to be modified     over public lands or public trust biotic
are interested in reducing and                     to reflect the unique characteristics of   resources and to the science information
eliminating the potential for fraud and            the individual or small group physician    needs for other Department of the
abuse within their practice.                       practice. Detailed justifications and      Interior bureaus and other Federal
   The guidances represent the                     empirical data supporting suggestions      agencies. Proposals must demonstrate a
culmination of the OIG’s suggestions on            would be appreciated.                      commitment to information exchange
how providers can most effectively                   We also request that any comments,       and technology transfer.
establish internal controls and                    recommendations and input be               Eligibility Requirements
implement monitoring procedures to                 submitted in a format that addresses the
identify, correct and prevent fraudulent           above topics in a concise manner, rather     Applicant Eligibility: State, Tribal,
and wasteful activities. As stated in              than in the form of a comprehensive        and/or U.S. Territories and Possessions
previous guidances, these guidelines are           draft guidance that mirrors previous       that conduct natural resources studies
not mandatory for providers, nor do                guidances.                                 and associated information
they represent an exclusive document of                                                       management. No Federal or private
                                                     Dated: August 31, 1999.
advisable elements of a compliance                                                            agencies may apply.
                                                   June Gibbs Brown,
program.                                                                                      Application and Award Process
                                                   Inspector General.
   In an effort to formalize the process by
which the OIG receives public                      [FR Doc. 99–23294 Filed 9–7–99; 8:45 am]      Pre-proposal Submission: Eligible
comments in connection with                        BILLING CODE 4150–04–P                     institutions may request a Pre-proposal
compliance program guidances, the OIG                                                         Solicitation Package, including
is seeking, through this Federal Register                                                     instructions on the SPP and how to
notice, formal input from interested               DEPARTMENT OF THE INTERIOR                 submit an application, from the USGS,
parties as the OIG considers developing                                                       Eastern Regional Office (see address
a compliance program guidance                      Geological Survey                          below). Pre-proposals must be
directed at individual and small group                                                        submitted to USGS by State/Tribe
                                                   Application Notice Describing an           institutions only, but must include
physician practices. The OIG will give
                                                   Opportunity of Federal Funding of          information on participating USGS
consideration to all comments,
                                                   Proposals Submitted Under the State        Science Center or Cooperative Research
recommendations and suggestions
                                                   Partnership Program (SPP) for Fiscal       Unit.
submitted and received by the time
                                                   Year 2000                                     Full-proposal Evaluation and Award:
frame indicated above.
   We anticipate that the physician                AGENCY: Department of the Interior, U.S.   Full proposals will be requested in
guidance will contain seven elements               Geological Survey.                         writing by the USGS from institutions
that the OIG considers necessary for a             ACTION: Notice.
                                                                                              that have submitted pre-proposals of
comprehensive compliance program.                                                             high merit and who have met all of the
These seven elements have been                     SUMMARY:   Pre-proposal Applications are   pre-proposal requirements as detailed in
discussed in our previous guidances                invited for projects under the FY2000      the Pre-proposal Solicitation Package.
and include:                                       State Partnership Program (SPP).           Detailed specifications will be provided
   • The development of written                      The purpose of the SPP is to provide     when the written request for full
policies and procedures.                           support through grants and cooperative     proposals is made. After meeting all
   • The designation of a compliance               agreements to states and tribal agencies   submission requirements, full proposals
officer and other appropriate bodies.              whose primary focus is on gathering,       will be reviewed and evaluated by a
                                                   analyzing, and distributing biological     technical review team. Projects will be
   1 See 62 FR 9435 (March 3, 1997) for clinical   science information needed for natural     individually scored and prioritized, and
laboratories, as amended in 63 FR 45076 (August    resource management decision-making.       award recommendations forwarded to
24, 1998); 63 FR 8987 (February 23, 1998) for      This program requires complementary        the USGS contracting office for award.
hospitals; 63 FR 42410 (August 7, 1998) for home   study participation and interaction           Dates: Completed pre-proposals must
health agencies, and 63 FR 70138 (December 18,
1998) for third party medical billing companies.
                                                   between State/Tribal institutions and      be submitted to the USGS, Eastern
The guidances can also be found on the OIG web     Science Centers or Cooperative Research    Regional Office and be postmarked no
site at http://www.hhs.gov/oig.                    Units of the USGS, Eastern Region. For     later than October 6, 1999. Full
